2311 Douglas Street

C@QCKLE

Le g al Bri efs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
FLAVIO TAMEZ,
Petitioner,
v.
UNITED STATES,
Respondent.
AFFIDAVIT OF SERVICE

J, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of July, 2019, send out
from Omaha, NE | package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
JOSE LUIS RAMOS JAIME OMAR GARZA
937 S. Ramos Lane Counsel of Record
Hebbronville, TX 78361 111 S. Seguin Street
(956) 227-0493 San Diego, TX 78384
jlramos@yahoo.com (361) 279-8251

garzylvania@rocketmail.com

Attorneys for Petitioner

Subscribed and sworn to before me this 18th day of July, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

General Notary . ‘
State of Nebraska : Le Qundraw- ,

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38345
Noel J. Francisco

Solicitor General of the United States
U.S. Department of Justice

Room 5616

950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001

(202) 514-2217
supremectbriefs@usdoj.gov
